No. 21In the

Supreme Court of the United States
CENTRIPETAL NETWORKS, INC.,
Petitioner,
v.
CISCO SYSTEMS, INC.,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of A ppeals for the Federal Circuit

SUPPLEMENTAL APPENDIX
Paul J. A ndre
Counsel of Record
Lisa Kobialka
James Hannah
Kramer Levin Naftalis
& Frankel LLP
990 Marsh Road
Menlo Park, CA 94025
(650) 752-1700
pandre@kramerlevin.com
lkobialka@kramerlevin.com
jhannah@kramerlevin.com
Counsel for Petitioner

305711

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
Exhibit-1042 - SourceFire 3D IT PRO  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . SA1
Exhibit-1043 - SourceFire 3D IPS1000 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . SA6

8/15/2019

Sourcefire 3D | 2 | IT PRO

SECURITY
NEWS

MOBILE

NETWORK/INTERNET

WINDOWS MIGRATION

GDPR

CLOUD

BLOCKCHAIN

STRATEGY
BIG DATA

SERVER/STORAGE
OPERATING SYSTEMS

SOFTWARE
LAPTOPS

MORE

...

 WHITEPAPERS

We'll try
to show
Adnot
closed
by that ad again
Stop seeing this ad

Why this ad?

⌂ home / security / firewalls

Sourcefire 3D
Get the ITPro Newsletter
Get FREE daily newsletters from ITPro delivering the latest news, reviews, insight and
case studies.
Click here!

SHARE

TWITTER

LINKEDIN

FACEBOOK

GOOGLE+

WRITTEN BYb
Ian Murphy

Priceb: £25,000

REVIEWS

3 Jan, 2007

(Sourcefire 3D Suite starting price), £2,659 (Intrusion Sensors
starting price) £20 (RNA per node, falling to £2 for volumes in
excess of 131,000 nodes), all exc VAT

https://www.itpro.co.uk/101161/sourcefire-3d/page/0/1

1/5

Patent Owner Centripetal Networks, Inc. - Ex. 2009, p. 1
CS - 1042 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 1
SA1

8/15/2019

Sourcefire 3D | 2 | IT PRO

Verdictb:
Despite Sourcefire's attempts to produce a workable GUI, it is a solution that

We'll try
to show
Adnot
closed
by that ad again
Stop seeing this ad

requires careful planning and significant investment in training to ensure you get
the best out of it. Many companies will find that off-putting, yet it is still the most

Why this ad?

sophisticated security tool I've ever tested and sets a real standard for other
vendors to try and match.

Sourcefire is a security company that has built a reputation for providing
security across the network. While others focus on just point solutions
such as anti-virus, intrusion detection and firewalls, Sourcefire has
focused on producing an enterprise-class system that encompasses
everything. It can be bought as a single comprehensive solution or you
can add components as needed.
3D stands for Discover, Determine and Defend, hence the Sourcefire 3D
name. Each of the three components has a specific job. Discover is done
by the Intrusion and RNA Sensors, Determine by the Defence Centre and
Defence by your existing tools. The Sensors and the Defence Centre are
shipped as hardware appliances.
Much depends on what part of the solution you buy and the complexity
of your network as to what you get in the box. You can buy all three
appliances as a single package or you can buy as separate components. If
required, the whole thing can come in a single appliance but for real
security you are going to want to deploy and lot of the sensors around
your network.
The Defence Centre is a 2U appliance while the Intrusion and RNA
Sensors are 1U appliances although the RNA Sensor can be purchased as
just a software package and installed on your own hardware.

You May Like

At first glance this is a complex system to get to grips with. The GUI needs
to be reworked and you must have a real understanding of what the
components do before deploying. A good knowledge of what you have on

You deserve it
Protected Trust

your network is always helpful here as it will assist you in understanding
what information you get from Sourcefire 3D. Without that, you will find
big differences in the type and number of alerts from existing solutions
you may have and Sourcefire 3D.
All sensors have their own Gigabit connection to the Defence Centre and
use an encrypted SSL (AES 256bit) link. Sourcefire recommends that you
place the Defence Centre on a separate LAN or at least use a separate
VLAN from the Sensors.

How to Become Fully Anonymous Online in
Less Than 3 Minutes? Better safe than sorry
FigLeaf Beta App

Which 5 Travel Cards Have The Most
Valuable Miles?
NerdWallet

The Intrusion Sensor is a beefed up version of Snort, the software sniffing
tool that you can get free. You can configure the Intrusion Sensor in
either active or passive mode and this slightly changes its role. In active

Trusted Construction Software Partner
Viewpoint

mode the focus is on intrusion protection, actively monitoring and
blocking traffic based on rules. In passive mode it offers intrusion
detection using rules to monitor and raise alerts.
What makes the Intrusion Sensor interesting is the use of multiple
detection engines all of which work with the main Snort rules engine. This
means that whenever a new attack is detected, a single rules update
becomes available to all the detection engines.

https://www.itpro.co.uk/101161/sourcefire-3d/page/0/1

Sponsored Links by Taboola

Featured Whitepapers
Powering growth and innovation in a
hybrid cloud world
Your enterprise has a hybrid cloud
environment, whether you know it or not
2/5

Patent Owner Centripetal Networks, Inc. - Ex. 2009, p. 2
CS - 1042 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 2
SA2

8/15/2019

Sourcefire 3D | 2 | IT PRO

The RNA Sensor only works in passive mode and there are good reasons
for this. Its first job is to identify all the assets on your network and
determine what is out there. This has to be done in passive mode as in a
critical environment; active mode could interfere with the running of your
other equipment. One of the shocking things about the RNA Sensor is the
amount of data that it does acquire.

What you need to know about
migrating to SAP S/4HANA
Factors to assess how and when to begin
migration

If getting a fairly accurate map of your network was not enough, the RNA
Sensor is very smart about how it responds to threats. When a threat is
detected, it looks to see what systems you have that are vulnerable to
that threat. If there are no vulnerabilities then the threat becomes moot.
This is important to understand because you could find yourself caught
between different systems giving conflicting data.

8 digital best practices for IT
professionals
Don't leave anything to chance when
going digital

An example of this is the Slammer attack. If you have machines running
SQL Server that have been patched, any detection of a Slammer attack
will be ignored. There is no point in sending alerts for something that
isn't real. Compare this with the average firewall which will send an alert
because it has detected a Slammer attack but which doesn't know
anything about your internal systems.

Time to say yes to NoSQL
Companies need to adopt NoSQL
solutions - or get comfortable with a
limited future

The result should be a massive reduction in false positives, allowing your
security team to concentrate on what they really need to deal with rather
than chasing ghosts.
The last element, the Defence Centre is about rules, management and
reporting. It acts as a filter engine dealing with the data from the
Intrusion and RNA Sensors allowing the operators to manage security
from a single point rather than have to touch each sensor constantly.

The Total Economic Impact of Adobe
Analytics & Adobe Audience Manager
Accelerating time-to-insight, driving
digital growth, and enhancing the
customer experience

Most security products look at an alert and simply respond to that. The
Defence Centre uses pivot tables to allow you to find correlations
between attacks. This is critically important in an age where attacks can
easy circumvent your network protection via USB drives, mobile phones,
MP3 players and the like.
When an attack is detected, you can go back and find the machine that
was the zero point. From here you can look at its communication with
other computers and see unexpected bursts of traffic or excessive
connections. This allows you to map and predict the spread of an attack
internally.
You can then start to isolate and stop attacks, clean the network and
build a profile of how the incident occurred. This is extremely
sophisticated and well ahead of other products in the market.

Popular

To make this process easier to see, there is a set of 3D modelling tools so
that you can use to see the spread of an attack. This provides more than
just security information; it can provide an organisation with an insight as
to the relationships and information flow throughout their business. This

1

Def Con developer sells $200 Machacking iPhone cables

2

Massive biometric data breach found in
system used by banks and Met police

3

What is HTTP error 503 and how do you
fix it?

SECURITY

also pays into the compliance requirements in that it can show how likely
it is that information has breach internal safeguards.
While Sourcefire owns the intellectual property for Snort is has kept it

DATA BREACHES

free and available to the wider community. Taking that knowledge and
then pulling it back with additional features into their Intrusion Sensor is
a clever move. It means that there are a number of qualified developers
https://www.itpro.co.uk/101161/sourcefire-3d/page/0/1

WEB BROWSER

3/5

Patent Owner Centripetal Networks, Inc. - Ex. 2009, p. 3
CS - 1042 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 3
SA3

8/15/2019

Sourcefire 3D | 2 | IT PRO

in the market and the product is widely accessible. As other security
companies look to use Snort for their products, it has the added
advantage of ensuring that knowledge gained is not knowledge lost

4

What is GDPR? Everything you need to
know, from requirements to fines

5

UK's tech sector hit by wider economic
downturn

POLICY & LEGISLATION

should you choose to change security vendor.
Sourcefire takes advantage of the Snort Rules Engine integration with the
Detection Engines to simplify the deployment of new rules. This single

STARTUPS

rule, multiple engines approach is a very fast and simple way to deploy
security. It also ensures that when rules are being updated, there is no
mismatch between the rules base for each of the different engines, which
could open a temporary vulnerability. Sourcefire sends out new rules
every two weeks, or sooner should a specific threat emerge.
The GUI is perhaps the most disappointing aspect of the whole system.
The problem is that there is so much to do and so many things to work
with that the GUI is really fighting against information overload.
Sourcefire needs to think about how it can improve this.
Sourcefire could also do a little more in terms of extra wizards and
tutorials. It also needs to work a little more on the certified training side
and align it with some of the wider industry objectives on security.
Despite these criticisms this is the most sophisticated security tool I've
ever tested and sets a real standard for other vendors to try and match.

READ MORE ABOUT: FIREWALLS |

SECURITY |

NETWORK & INTERNET

Latest in Firewalls
Decade-old vulnerability
found in globally popular
office phone
NEWS

NHS anaesthetic machines
vulnerable to hackers
NEWS

IT chiefs are compromising
security for smoother
business operations
NEWS

Flaws in 4G and 5G could
allow attackers to launch DoS
attacks and track location

You May Like

NEWS

How
ow to Become Fully Anonymous Online in Less Than 3 Minutes? Be
Better safe
than sorry

WatchGuard Firebox M670
review: Dazzling value

FigLeaf Beta App

REVIEWS

Which 5 Travel Cards Have The Most Valuable Miles?
NerdWallet

25 Upcoming Sequels You Didn't Know Were Being Made
DirectExpose

You deserve it
Protected Trust

The Thunder Had Their Chance At Two Dynasties
SportsChew

Trusted Construction Software Partner
Viewpoint

https://www.itpro.co.uk/101161/sourcefire-3d/page/0/1

4/5

Patent Owner Centripetal Networks, Inc. - Ex. 2009, p. 4
CS - 1042 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 4
SA4

8/15/2019

Sourcefire 3D | 2 | IT PRO

Top 40 Coolest Movie Cars of All Time
Car and Driver

20 Female
emale Celebrities
iti Who Are Way Taller Than Anyone Thought
Eternally Sunny

Every State’s All-Time No. 1 High School Football Recruit
Stadium Talk

Sponsored Links by Taboola

Contact us
Dennis Publishing Editorial
Offices 31-32 Alfred Place
London, WC1E 7DP T: +44 (0)20
3890 3890

Useful links

Our Websites

Security
Mobile
Network/internet
Cloud
Strategy
Server/storage
Software
More
Contact us
About us
Company Website

Alphr
Channel Pro

Know Your Mobile
Cloud Pro

Expert Reviews

Feeds
Privacy Preferences
Privacy Policy
Cookie Policy
Authors
Sitemap

JOBS

Copyright © Dennis Publishing Limited 2019. All rights reserved.

MEDIA INFORMATION

SUBSCRIPTION ENQUIRES

BOOKS

APPS

IT Pro™ is a registered trade mark.

https://www.itpro.co.uk/101161/sourcefire-3d/page/0/1

5/5

Patent Owner Centripetal Networks, Inc. - Ex. 2009, p. 5
CS - 1042 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 5
SA5

8/12/2019

Sourcefire 3D IPS1000 Product Review | SC Media

Home > Reviews

May 01, 2006

PRODUCT INFORMATION

SourceØre 3D IPS1000
Name: SourceØre 3D IPS1000
Description:
Price: from $4,500 for IS1000; from $1,385 for RNA; from $20,200 for Defense Center

QUICK READ
STRENGTHS: Performs well under normal attack conditions and can work well as a layer of protection for average networks.
WEAKNESS: If the sensor is compromised for any reason, the IPS system leaves the network vulnerable to attack.
VERDICT: Not an IPS star: SourceØre’s rating here does not take into account the suite’s full capabilities.

RATING BREAKDOWN

SC Labs Reviews
Reviews from our expert team
Features:

Documentation:

Value for Money:

Performance:

Support:

Ease of Use:

3.00/5
SUMMARY
The SourceØre box does allthe things an IPS shoulddo. It Øts comfortably inthe category of an average IPS,although it must be
rememberedthat the SourceØre 3D Suiteincludes a ton of IDS, scanning,and vulnerability managementcapability which falls outside
thecontext of this review. As an IPS,the box has no standout features,and nothing speciØcally separatesit from other IPSs.

https://www.scmagazine.com/review/sourcefire-3d-ips1000/

1/3

Patent Owner Centripetal Networks, Inc. - Ex. 2010, p. 1
CS - 1043 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 1
SA6

8/12/2019

Sourcefire 3D IPS1000 Product Review | SC Media

With the management interfacegeared around the suite as a whole,narrowing down IPS functionalitywas difØcult. There is no
deØnedprocedure for setting policies ordetermining what types of policiesare needed.
The conØguration of the boxitself involves a long navigationthrough a complicated web interface,and setting different policiesand
generating the reports weneeded was time-consuming andbecame more difØcult the furtherwe progressed.
The box defended againstnormal scans and attacks, but wewere able to compromise thesensor by launching a denial-ofserviceattack and
bypassing theIPS. With the sensor disabled, thecomputers on our target networkbecame susceptible to attack byour testing tools. The
consolecould Ùag up a dead sensor, butthat of course will not protect thesystems that are under attack.
The appliance comes with a CDthat contains documentation andrestore information. There aretwo manuals, one is an installationguide
and the other is an administratormanual. But the documentationis very long, more than 900pages, and is geared to operatingthe suite as a
whole. If the manualis needed to answer speciØcconØguration issues or questions,the search for information can bevery time-consuming.
There is a lot of support offeredfrom SourceØre, including fulltelephone technical support aswell as online help Øles and emailsupport, as
part of an onlinesupport site.
The product comprises threeappliances: the IS 1000; the RNA;and the Defense Center. It is fairlypricey for its abilities but doesrequire
reasonably intensivedeployment and management. Butyou would not buy it for the IPS– this is just one component ofthe whole suite,
which is a muchmore attractive proposition.

Back to Top

COMPANY INFO
About Us
SC Corporate News
Meet the Team
Advisory Board
Contact Us

PRODUCT REVIEW
About Product Review
Group Tests
FAQ
https://www.scmagazine.com/review/sourcefire-3d-ips1000/

2/3

Patent Owner Centripetal Networks, Inc. - Ex. 2010, p. 2
CS - 1043 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 2
SA7

8/12/2019

Sourcefire 3D IPS1000 Product Review | SC Media

USER CENTER
Videos
Executive Insight Guidelines
Subscribe

OTHER SC SITES
RiskSec Conference
SC Resource Library
SC Online Events
SC Awards

Copyright © 2019 Haymarket Media, Inc. All Rights Reserved
This material may not be published, broadcast, rewritten or redistributed in any form without prior authorization.
Your use of this website constitutes acceptance of Haymarket Media’sbPrivacy PolicybandbTerms & Conditions.

https://www.scmagazine.com/review/sourcefire-3d-ips1000/

3/3

Patent Owner Centripetal Networks, Inc. - Ex. 2010, p. 3
CS - 1043 Cisco Systems, Inc. v. Centripetal Networks, Inc., Page 3
SA8

